UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




Office of the Chief Information Officer
        Procurement Functions


                Report No. OIG-AMR-57-08-01




                                              March 2008
INSPECTOR GENERAL




                NATIONAL LABOR RELATIONS BOARD

                       WASHINGTON, DC 20570

March 14, 2008,

I hereby submit a review of the National Labor Relations Board Office of the
Chief Information Officer Procurement Functions, Report No. OIG-AMR-57-08-
01. This audit was conducted to determine whether controls over procurement
actions by the Office of the Chief Information Officer (OCIO) are sufficient to
ensure compliance with the Federal Acquisition Regulation and are operating
as intended.

We initiated this review because the General Counsel and his managers
repeatedly raised concerns that providing warrant authority to an individual
who is supervised by the Chief Information Officer (CIO) is inconsistent with
long-standing Federal procurement principles regarding internal controls of
fiscal matters. To support this position, the General Counsel and his
managers pointed to Office of Management and Budget guidance, Federal
procurement policy, and an audit report by the Department of Labor’s Office of
Inspector General.

The internal controls that were put in place to address the General Counsel’s
concerns were generally insufficient to prevent violations of the Federal
Acquisition Regulation and Antideficiency Act. These violations include the
failure to properly plan and compete procurement actions, inappropriate use of
contract types, exercising a nonexistent option, executing contract actions
without proper authority, and taking affirmative action that obscured an
unauthorized commitment. We also found violations of the Antideficiency Act
involving indemnification clauses. The violations are summarized as an
attachment to this report.

The internal controls also failed to meet Government Accountability Office
standards. The internal controls were not properly documented and the
employees involved did not know what procedures to follow. The controls that
were in place were not always followed. The findings of this report show that
these internal controls failed to prevent, detect, and correct errors and abuse.
                                       TABLE OF CONTENTS
BACKGROUND ......................................................................................1

OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................2

FINDINGS ..............................................................................................3

DOCUMENTATION OF INTERNAL CONTROLS .......................................3
  Internal Control Procedures.................................................................4
  Supporting Documentation..................................................................4
APPLICATION OF PROCEDURES ...........................................................5
  Solicitations ........................................................................................5
  Modifications.......................................................................................5
EFFECTIVENESS OF INTERNAL CONTROLS .........................................5
  Competition.........................................................................................5
  Additional FAR Requirements ..............................................................8
  Antideficiency Act ..............................................................................17
  State Laws.........................................................................................17
RECOMMENDATIONS..........................................................................18

ATTACHMENT .....................................................................................19

APPENDIXES

    A. Memorandum from the Chief Information Officer, Draft Report
       OIG-AMR-57, dated March 7, 2008

    B. Memorandum from the Director of Administration (Senior
       Procurement Executive), Comments on Draft Report "Office of
       Chief Information Officer Procurement Functions" (OIG-AMR-57),
       dated March 7, 2008
                                BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. The Fiscal Year (FY) 2008 appropriation authorized 1,690 full-time
equivalents that are located at Headquarters, 51 field offices throughout the
country, and 3 satellite offices for administrative law judges. NLRB received an
appropriation of $256,238,000 for FY 2008, less a rescission of 1.747 percent,
leaving a net spending ceiling of $251,762,000.

Between FY 2005 and FY 2007, the Agency spent approximately $10 million
each year for information technology (IT) related supplies and services. These
items included computer equipment, system development, maintenance on
existing systems, and IT security efforts. In August 2005, the Chairman
approved the Chief Information Officer’s (CIO) request to reestablish a
contracting officer in the Office of the Chief Information Officer (OCIO). In
March 2006, an Associate CIO for Program Management was hired. This
position included the contracting officer function.

From April through June 2006, the General Counsel and his managers met
with and exchanged correspondence with the Chairman and the Board
regarding the appropriateness of having a contracting officer in OCIO. In
several internal memoranda, the General Counsel asserted that placing
significant fiscal authority in one person without traditional checks provided by
the procurement process presents serious and unnecessary risks for the
Agency. As a result of that exchange, procedures that included a review of
OCIO contracts by the Procurement and Facilities Branch (PFB) were developed
to ensure compliance with the Federal Acquisition Regulation (FAR) and Agency
procurement practices.

A 6-month pilot program to test internal control procedures related to the
contracting officer position in the OCIO began on May 15, 2006, when the
Senior Procurement Executive, who is the Director of Administration, issued a
warrant to the Associate CIO for Program Management. The warrant authority
continued past the pilot program’s scheduled completion date.

Despite these efforts to provide for internal controls, the General Counsel and
his managers continued to express concern regarding OCIO’s procurement
function. The Director of Administration raised this issue with both the Office
of Inspector General (OIG) staff and contract auditors conducting the audit of




                                       1
the Agency’s annual financial statements. We initiated this audit because of
the importance of the Agency’s procurement process.


                 OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine whether controls over procurement
actions by the OCIO are sufficient to ensure compliance with the FAR and are
operating as intended.

We reviewed guidance regarding internal controls including the Government
Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government, dated November 1999. We reviewed The Constitution of the
United States, applicable sections of Federal statutes and regulations, Office of
Management and Budget guidance, and Comptroller General decisions to
determine the laws and regulations affecting the procurement of goods and
services. We reviewed Agency policies and procedures including Administrative
Policies and Procedures Manual, Chapter CON-1, Contract and Procurement,
dated August 12, 2004, and the NLRB Procurement Warrant Manual.

We interviewed employees in the Office of the General Counsel, OCIO, Division
of Administration, and the Division of Operations-Management to identify the
standard operating procedures for procurements handled by the OCIO
contracting officer. We evaluated this information to determine whether the
policies and procedures were designed to provide reasonable assurance that
improper actions or noncompliance with laws or regulations are prevented or
detected in the normal course of business.

We judgmentally selected a sample of 10 procurements from FY 2007 and
October 2007. This included all purchase orders over $100,000 and 5 of 20
purchase orders less than $100,000. Our sample included $1.6 million of the
$2.2 million obligated by the OCIO contracting officer in FY 2007 and October
2007. We also reviewed additional actions that were not in our sample that
came to our attention during the audit. We interviewed employees from the
General Services Administration (GSA), Office of the Executive Secretary, OCIO,
Division of Administration, and the Division of Operations-Management and
reviewed applicable documents to determine whether established controls were
followed and whether contract actions were in compliance with laws and
regulations.

We obtained approval data from the Agency’s procurement system to determine
whether a purchase order or modification was signed prior to obtaining proper




                                       2
approvals. We also compared the information on the contract documents to
the electronic information in the procurement system.

We reviewed the license agreements for 14 software purchase orders to
determine whether they were in compliance with the Antideficiency Act and
other laws and regulations.

This audit was performed in accordance with generally accepted government
auditing standards during the period October 2007 through March 2008.
Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. We conducted this audit at NLRB Headquarters in
Washington, DC.


                                   FINDINGS

Internal control is an essential part of managing an organization. It comprises
the plans, methods, and procedures used to meet missions, goals, and
objectives and, in doing so, supports performance-based management.
Internal control also serves as the first line of defense in safeguarding assets
and preventing and detecting errors and fraud. In short, internal control,
which is synonymous with management control, helps Agency program
managers achieve desired results through effective stewardship of public
resources.

The internal controls that have been put in place for the OCIO procurement
function were generally insufficient to prevent violations of the FAR and
Antideficiency Act. Internal controls were not properly documented, the
employees involved did not know what procedures to follow, and the controls
that were in place were not always followed. The violations are summarized as
an attachment to this report.


DOCUMENTATION OF INTERNAL CONTROLS

Standards for internal control state that procedures and all transactions and
other significant events need to be clearly documented, and the documentation
should be readily available for examination. The documentation should appear
in management directives, administrative policies, or operating manuals.




                                       3
Internal Control Procedures

The internal control procedures are set out in a memorandum. Those
procedures require review of the OCIO’s procurement actions by PFB. The
procedures, however, lacked sufficient detail to satisfy the documentation
requirement. The memorandum does not reference a requirement for legal
review, the processing of solicitations, how the reviews will be documented, or
what items will be provided to PFB to be reviewed for an individual
procurement action.

In June 2006, the OCIO staff created a flowchart of the OCIO procurement
process. OCIO staff stated that they obtained PFB input when they created the
flowchart. PFB stated that they did not have any input into the flowchart. The
Contracts and Procurement Section Chief, who started in that position in
August 2007, stated that she had not seen the flowchart created by OCIO prior
to reviewing the copy provided by the OIG in November 2007. In response to
PFB’s assertion, the CIO stated that the flowchart was created for his benefit.

As a result of the lack of internal control documentation, PFB’s and OCIO’s
understanding of the procedures are different. OCIO believes that PFB only
reviews solicitations over $100,000. PFB believes that they review all
solicitations. OCIO also believes that although PFB reviews the solicitations,
PFB approval of solicitations is not necessary. If all solicitations are not
reviewed and approved before they are publicized, there is no control to ensure
that the solicitations comply with applicable laws and regulations.

Supporting Documentation

Recordkeeping was not sufficient to document that the OCIO procurement
review process was complete. Evidence was not available to ascertain which
supporting documents were supplied by OCIO and relied upon by PFB and
legal counsel in determining that the procurement was appropriate and lawful.
For example, we were unable to determine whether the OCIO contracting officer
forwarded the market research conducted for the purchase of EMC software.
We were also unable to determine whether the OCIO contracting officer
forwarded a copy of the winning proposal received in response to the Agency’s
solicitation for network storage devices. Without this documentation, the
reviewer would not be able to determine whether the proposal conformed to the
Agency’s solicitation.




                                       4
APPLICATION OF PROCEDURES

According to a flowchart prepared by the OCIO, PFB is required to review all
solicitations over $100,000 and approve all contract actions, regardless of
dollar value, that are completed by the OCIO contracting officer. PFB approval
of purchase orders and modifications is documented in the Agency’s
procurement system. PFB procedures require a legal review for all
solicitations, purchase orders, and modifications over $100,000.

Solicitations

OCIO and PFB procurement procedures were not followed for solicitations over
$100,000. Two of the three solicitations that were valued over $100,000 were
not reviewed by PFB or legal counsel. The one time that a review was
conducted, the OCIO contracting officer posted the solicitation prior to
receiving PFB’s comments, thus bypassing internal controls. The OCIO
contracting officer told PFB that the procurement was very urgent and could
not wait until comments were resolved.

Modifications

PFB procurement procedures requiring legal review were not followed for a
modification over $100,000. Modification 001 for the Project Performance
Corporation purchase order for the period March 5 to September 27, 2007, was
not reviewed by legal counsel. This modification added $378,528 to the value
of the contract.


EFFECTIVENESS OF INTERNAL CONTROLS

Internal controls should provide reasonable assurance that the Agency
complies with applicable laws and regulations. The controls that were in place
for the OCIO procurement actions that we reviewed did not meet that standard
and were generally ineffective in preventing violations of the FAR and the
Antideficiency Act. Although it may not be possible to perfectly execute every
purchase order or modification, the number of violations we identified are too
extensive to excuse as minor imperfections in an otherwise well-controlled
procurement program.

Competition

The Agency did not comply with the FAR when it limited competition for 3 of
the 10 purchase orders in our sample and another related purchase order. In
another purchase, the Agency created the appearance of competition for an



                                      5
item that had only one source. The purchase orders with Project Performance
Corporation for the period of September 28 to November 23, 2007, and
November 26, 2007, to February 29, 2008, were inappropriately sole sourced.
The Agency posted the request for EMC software to e-Buy and transmitted the
posting to three vendors even though the contracting officer knew that
immixTechnology, Inc. was the only source for the software on the Federal
Supply Schedule (FSS). Required brand name justifications were not posted
for Agency purchase orders with Mythics, Inc. for Oracle-Siebel software and T-
Mobile USA for BlackBerry services.

Limiting Competition

Section 8.405-6 of the FAR states that an ordering activity must justify its
action when restricting competition for orders placed against FSS contracts.
Circumstances that may justify restriction include: only one source is capable
of responding due to the unique and specialized nature of the work; the new
work is a logical follow-on to an original FSS order provided that the original
order was placed in accordance with the applicable FSS ordering procedures;
or an urgent and compelling need exists, and following the ordering procedures
would result in unacceptable delays. For a logical follow-on order, the original
order must not have been previously issued under sole source or limited source
procedures.

The purchase orders placed against Project Performance Corporation’s FSS
contract for the period of September 28 to November 23, 2007, and November
26, 2007, to February 29, 2008, were both inappropriately limited to a sole
source. Both justifications for other than full and open competition cite the
statutory authority for this purchase as section 6.302-2 of the FAR – unusual
and compelling urgency. Section 6.302-2 is the wrong regulatory authority
because both orders were placed against Project Performance Corporation’s
FSS contract. FSS orders are covered by subpart 8.4 of the FAR and are
exempt from the requirements of Part 6. The OCIO contracting officer agreed
that Part 8 should have been referenced, but he stated that PFB insisted that
he use a particular form that did not include FSS justifications. PFB stated
that they have always had separate justification forms for Part 6 and Part 8 of
the FAR.

Given that the work by Project Performance Corporation appears to have been
adequately monitored, justifying these orders is difficult under an urgent and
compelling need analysis because the Agency should have been able to foresee
the continued need for services and taken appropriate steps to initiate a
competitive procurement action. Although the second purchase order for the
period of performance from March 5 to September 27, 2007, could have been




                                       6
justified as a logical follow-on, the third purchase order for the period of
performance from September 28 to November 23, 2007, was prohibited under
that authority because the Agency cannot limit competition for a second logical
follow-on.

Appearance of Competition

Section 3.101-1 of the FAR states that Government business shall be
conducted in a manner above reproach and that the expenditures of public
funds require the highest degree of public trust. Section 1.102 of the FAR
provides two of the FAR’s guiding principles are to conduct business to
minimize administrative operating costs and with integrity, fairness, and
openness.

A purchase of EMC software from immixTechnology, Inc. had the appearance of
competition, but was in fact a sole source purchase order against
immixTechnology, Inc.’s FSS contract that involved a third party agreement
with EMC.

The Agency determined that it would procure additional licenses for EMC
software to meet a need for all users of the Next Generation Case Management
System. A limited amount of the software licenses had been purchased from
EMC at an earlier date. After that purchase, EMC ceased selling the software
directly to end users. EMC also made certain changes to the software that
could have arguably required the Agency to repurchase the initial licenses that
it obtained. In an effort to avoid repurchasing the licenses, an OCIO manager
negotiated a deal with EMC that would allow the initial licenses to be converted
to the updated software if the Agency purchased the additional licenses.

The Agency procured the additional licenses for the EMC software from
immixTechnology, Inc., the only available FSS source. In doing so, the OCIO
procurement officer requested information from immixTechnology, Inc. that
was then used verbatim in the Agency’s solicitation that was posted to the e-
Buy system. In addition to sending the solicitation to immixTechnology, Inc.,
the OCIO procurement officer sent it to two vendors that could not supply the
software licenses. immixTechnology, Inc. submitted the only quote that was
then accepted by the Agency.

This procurement was not conducted in a manner that was consistent with the
requirement for instilling a high degree of public trust, minimizing
administrative operating costs or with integrity, fairness, and openness. The
agreement with EMC was not memorialized in any procurement document and
there is no documentation that it was approved by the OCIO contracting officer




                                       7
or reviewed and approved by PFB. The result of this process was to obscure
the fact that it was a sole source procurement, thereby creating the appearance
that it was within the OCIO contracting officer’s warrant authority. Because of
this appearance of competition, this action did not have the safeguards that are
normally in place for sole source procurements.

Brand Name Justification

Sections 8.405-6 and 11.105 of the FAR require that all agencies prepare
justifications when brand name specifications are used in the solicitation.
Agencies are required to post the brand name justification or documentation
to: the Governmentwide Point of Entry system at www.fedbizopps.gov with the
solicitation; or the e-Buy system at www.ebuy.gsa.gov with the request for
quotation when using a GSA FSS. The posting requirement applies to
acquisitions exceeding $25,000 that use brand name specifications, including
simplified acquisitions, sole source procurements, and orders placed against a
FSS contract.

Brand name justifications were not posted for two of the three solicitations over
$25,000 that required a specific brand name. Those purchase orders were
with Mythics, Inc. for Oracle-Siebel software and T-Mobile USA for BlackBerry
services.


Additional FAR Requirements

Acquisition Plans

Section 7.102 of the FAR requires acquisition planning for all acquisitions in
order to promote and provide for acquisition of commercial items and full and
open competition. Also, section 7.105 of the FAR outlines the contents of
written acquisition plans, which must address all technical, business,
management, and other significant considerations that will control the
acquisition. The specific content of plans will vary, depending on the nature,
circumstances, and stage of acquisition.

Acquisition plans were not documented for any of the 10 purchase orders in
our sample. The OCIO contracting officer stated that acquisition plans are
generally documented for larger service contracts. The OCIO contracting officer
also stated that generally anything over $100,000 should have an acquisition
plan with the exception of hardware purchases. We found no regulatory
authority for these assertions made by the OCIO contracting officer.




                                       8
According to PFB, one significant issue regarding the OCIO procurement
function is the lack of acquisition planning. The OIG recently issued an audit
with similar findings with regard to other procurements by the Agency.

At the exit conference, both the OCIO and Division of Administration
questioned the usefulness of acquisition plans for routine purchases. We
believe that the use of some type of plan would have gone a long way in
preventing some of the errors detailed in this report. For example, the required
brand name justifications may have been posted, the OCIO contracting officer
may not have exceeded his warrant authority, and the requirements for
including options in purchase orders might have been met.

Market Research

Section 10.001 of the FAR states that agencies must ensure that legitimate
needs are identified and trade-offs evaluated to acquire items that meet those
needs and conduct market research appropriate to the circumstances:

      1. Before developing new requirements documents for an acquisition by
         that agency;
      2. Before soliciting offers for acquisitions with an estimated value in
         excess of the simplified acquisition threshold;
      3. Before soliciting offers for acquisitions with an estimated value less
         than the simplified acquisition threshold when adequate information
         is not available and the circumstances justify its cost.

Market research was not documented for three of the purchase orders in our
sample. Market research was not documented for the Agency’s purchase order
with Project Performance Corporation for the period of March 5 to September
27, 2007, which was above the simplified acquisition threshold. The Agency’s
purchase orders with Project Performance Corporation for the period of
September 28 to November 23, 2007, and FormSoft Group LTD were sole
source purchases, and market research should have been conducted to justify
the cost of the acquisitions.

The market research conducted for the Agency’s order placed against the
Securities and Exchange Commission’s Blanket Purchase Agreement (BPA)
with Dell Marketing L.P. for computers was not appropriate to the
circumstances. The Agency limited their research to only suppliers of Dell
computers. Although it may be administratively convenient or even desirable
to procure only Dell computers, there is nothing unique to those computers
that would have required that the Agency only procure that specific brand.
Given that the Agency’s managers continually state that the Agency has




                                       9
extreme fiscal constraints, we believe that the OCIO should have conducted
broader market research.

Contract Type

A letter contract is a written preliminary contractual instrument that
authorizes the contractor to begin immediately manufacturing supplies or
performing services. Section 16.603-2 of the FAR states that a letter contract
may be used when (1) the Government’s interests demand that the contractor
be given a binding agreement so that work can start immediately and (2)
negotiating a definitive contract is not possible in sufficient time to meet the
requirement. Section 16.603 provides that a letter contract may be used only
after the head of the contracting activity or a designee determines in writing
that no other contract is suitable.

The Agency inappropriately entered into a letter contract with Project
Performance Corporation for a follow-on period of March 5 to September 27,
2007. The contract file did not contain any documentation that the Senior
Procurement Executive, the head of the contracting activity, approved the use
of a letter contract. The documentation that was in the contract file, including
a memorandum completed by the contracting officer, did not support the use of
a letter contract. The contract file contained no explanation as to why time
was of the essence.

It is likely that time was not of the essence because the original solicitation
provided 14 days to respond, and that is without any knowledge of the project.
The March 5 to September 27, 2007, period of performance contract was
awarded as a sole source procurement action against a FSS contract. The
statement of work for this purchase order is dated February 23, 2007, and the
letter contract was awarded on March 1, 2007. This amount of time should
have been sufficient for the vendor to prepare a proposal for the Agency’s
consideration. We note that the Agency entered into another sole source
purchase order with Project Performance Corporation for the period of
November 26, 2007, to February 29, 2008, and the vendor was able to submit
its proposal 1 day after receiving the statement of work. The Agency should
have been able to foresee this need and complete the full procurement process
rather than entering into a letter contract.

The letter contract did not receive legal review and the issues regarding
contract type were not identified by PFB. A letter contract poses a greater risk
to the Agency because work begins before the terms and conditions are
defined.




                                       10
Option Clauses

Subpart 17.2 of the FAR states that the contracting officer may include options
in contracts when it is in the Government’s interest. Solicitations shall include
appropriate option provisions and clauses when resulting contracts will provide
for the exercise of options. The contract shall state the period within which the
option may be exercised. The contracting officer shall justify in writing the
quantities or the term under option; the notification period for exercising the
option, and any limitation on option price; and shall include the justification
document in the contract file.

The Agency’s contract files for Mythics, Inc., Unisys Corporation, and T-Mobile
USA did not include the contracting officer’s written determination that the use
of options was in the Government’s best interest. The solicitations and
purchase orders for Mythics, Inc. for technical support and T-Mobile USA did
not include any of the necessary option clauses. Both of these purchase orders
also failed to include the period within which the option may be exercised.

The software license and support agreement for Pointsec software has a
provision for automatic 1-year renewals of the term of the support provisions of
the agreement unless one of the parties terminates the agreement 60 days prior
to the end of the then current term. This provision does not meet the
requirements of the FAR for options and is inappropriate in Government
procurement actions.

Exercising Options

Section 17.207 of the FAR states that the contracting officer may exercise
options only after determining that funds are available; the requirement
covered by the option fulfills an existing Government need; and the exercise of
the option is the most advantageous method of fulfilling the Government’s
need, price, the need for continuity of operations, and potential cost of
disrupting operations. In addition, the FAR requires that before exercising an
option, the contracting officer shall make a written determination for the
contract file that exercising the option is in accordance with the terms of the
option and the FAR itself.

The Agency exercised an option for technical support that was not available
from Mythics, Inc. because the purchase order failed to include the required
options clauses. Nevertheless, this nonexistent option was exercised on
September 28, 2007, after being reviewed by both legal counsel and PFB.

The contract file for Mythics, Inc. did not contain the required contracting
officer’s written determination that the option was the most advantageous



                                       11
method of fulfilling the NLRB’s need. The modification exercising the option
did not cite the option clause as authority. Although the option was contingent
on the availability of funds, the contracting officer failed to record the
obligation of funds once funds were available.

When the Agency entered into its purchase order with Unisys Corporation for
network storage devices for the Agency’s East Coast server, the purchase order
stated, “the West Coast storage solution option will be exercised in FY 2008
(subject to availability of fund).” This statement was not necessary and created
needless ambiguity. Because the period of performance of the East Coast
network server storage device did not extend into FY 2008, this option is not
available to the Agency.

Federal Supply Schedules

Section 8.402 of the FAR states that for administrative convenience, an
ordering activity contracting officer may add items not on the FSS (also referred
to as open market items) to a FSS BPA or an individual task or delivery order
only if:

   (1) All applicable acquisition regulations pertaining to the purchase of the
       items not on the FSS have been followed (e.g., publicizing, competition
       requirements, acquisition of commercial items, contracting methods,
       and small business programs);
   (2) The ordering activity contracting officer has determined the price for the
       items not on the FSS is fair and reasonable;
   (3) The items are clearly labeled on the order as items not on the FSS; and
   (4) All clauses applicable to items not on the FSS are included in the order.

The Agency inappropriately awarded a purchase order against Unisys
Corporation’s FSS contract. Unisys Corporation responded to the NLRB’s
solicitation for East and West Coast network storage solution data centers with
a submission that was non-conforming because 26 of the 36 items for the
devices were not on its FSS. The FSS items were valued at $33,961, and the
non-FSS items were valued at $121,486. The contract file did not document
that the requirements of section 8.402 of the FAR were met. As such, the
proposal should not have been considered. Nevertheless, the contracting
officer signed the price evaluation stating that all items were from the FSS
contract.

The Agency did not follow the FAR when it awarded a purchase order against
FormSoft Group LTD’s FSS. This purchase order included one item that was
on the FSS, FormFinder for the Web (Single Server edition) annual



                                       12
maintenance and support, and two items that were not on the FSS,
FormFinder for the Web (Enterprise edition) – one time upgrade fee and annual
maintenance and support for the upgrade. Because FormSoft Group LTD is
the only supplier of these items, the purchase could have been sole sourced.
However, there was no documentation that prices for items not on the FSS
were fair and reasonable. Additionally, the OCIO contracting officer failed to
complete a justification for other than full and open competition, properly
publicize items not on the FSS, clearly label the open market items on the
purchase order, and include all clauses applicable to items not on the FSS.

Ratification

Section 1.602-3 of the FAR states that an unauthorized commitment is an
agreement that is not binding solely because the Government representative
who made it lacked the authority to enter into the agreement on behalf of the
Government. Ratification is the act of approving an unauthorized commitment
by an official who has the authority to do so. The head of the contracting
activity, unless a higher level official is designated by the Agency, may ratify an
unauthorized commitment. Legal review is required prior to ratification. At the
NLRB, the ratification authority resides with the Senior Procurement Executive.

Contractor Performance

The Agency’s purchase order with FormSoft Group LTD for FormFinder
software was an unauthorized commitment that was not properly ratified. The
Agency continued using the FormFinder software after the purchase order
expired on March 6, 2007. The next purchase order for the maintenance and
support of the FormFinder software stated that the period of performance was
from April 6, 2007, to March 6, 2008, and the cost was the amount that would
be due for a 12-month period of use and support.

In their initial review, PFB commented that ratification was required for this
purchase order because the period of performance started on March 7, 2007.
The OCIO contracting officer responded by changing the period of performance
to begin on April 6, 2007. The result of this alteration was to obscure the 1-
month lapse between the performance periods while ensuring that the
contractor received the full amount due for a 12-month period of maintenance
and support. The contractor billed and the Agency paid for the full 12 months
for maintenance and support.




                                        13
Availability of Funds

Section 32.702 of the FAR requires that before executing any contract, the
contracting officer obtain written assurance from responsible fiscal authority
that adequate funds are available or expressly condition the contract upon
availability of funds. Section 43.105 of the FAR states that the contracting
officer shall not execute a modification that will cause an increase in funds
without first obtaining a certification of funds availability or conditioning the
modification upon availability of funds. The responsible fiscal authority at the
NLRB is the Budget Branch (Budget), whose assurance that adequate funds
are available is documented by their approval in the Agency’s procurement
system.

The OCIO contracting officer entered into a purchase order with CT Summation
for software before assurance that funds were available and it was not
contingent on the availability of funds. Performance began on October 1, 2007,
but the purchase order was not approved by Budget until October 3, 2007.
Because the OCIO contracting officer did not have authority to sign the
purchase order until after the performance period began, this was also an
unauthorized commitment that required ratification.

Two of the six modifications in our sample that caused an increase in funds
were executed without first obtaining a certification that funds were available.
Both of these modifications were to the Agency’s purchase order with Project
Performance Corporation for the period of March 5 to September 27, 2007.
Modification 001 was signed by a contracting officer in PFB on April 10, 2007,
but Budget’s approval was not received until April 11, 2007. Modification 004
was first memorialized in a June 14, 2007, e-mail to the vendor by the OCIO
contracting officer; however, this modification was not approved by Budget
until August 9, 2007. Neither the PFB nor OCIO contracting officer had
authority to sign these modifications and in doing so they created unauthorized
commitments that required ratification.

Clauses

Section 16.603-4 of the FAR states that the contracting officer shall include in
each letter contract the clauses for the type of definitive contract contemplated
and any additional clauses known to be appropriate for it. Section 16.506 of
the FAR states that certain clauses must be included for requirements
contracts.

Two of the purchase orders in our sample did not include all of the appropriate
clauses based on contract type. The Project Performance Corporation purchase




                                       14
order for the period of March 5 to September 27, 2007, failed to include two of
the three required clauses for letter contracts. The T-Mobile USA purchase
order did not include two of the three required clauses for a requirements
contract. Although the T-Mobile USA purchase order was not identified as a
requirements contract, it is one because it provides for filling all actual
purchase requirements of the Agency for mobile e-mail devices, with deliveries
and performance to be scheduled by placing orders with T-Mobile USA.

The Agency’s purchase order with Project Performance Corporation for the
period March 5 to September 27, 2007, did not include a clause that would
have allowed the Agency to unilaterally extend the contract within the limits
and at the rates specified in the purchase order. If this clause had been
included, the Agency could have extended the term of the purchase order and
avoided awarding two subsequent sole source purchase orders.

Central Contractor Registration

The Central Contractor Registration (CCR) is the primary Government
repository for contractor information required for the conduct of business with
the Government. According to subpart 4.11 of the FAR, prospective
contractors shall be registered in this database prior to award of a contract or
agreement. Unless the acquisition is exempt, the contracting officer shall verify
that the prospective contractor is registered in the CCR database before
awarding a contract or agreement.

The Agency awarded two purchase orders to a vendor that was not eligible
because the vendor’s CCR had expired. CT Summation’s registration in the
CCR database expired on April 27, 2006, and the Agency executed purchase
orders with CT Summation on October 3, 2006, and October 1, 2007. The
contract files contained no evidence that CT Summation’s registration in the
CCR database was confirmed.

COTR

Section 1.602-1 of the FAR provides that a contracting officer has the authority
to enter into, administer, and terminate contracts. The appointment
memorandum for a Contracting Officer’s Technical Representative (COTR)
states that the COTR represents the contracting officer in the technical phases
of the contract, but that the contracting officer is the exclusive agent of the
Government with the authority to enter into and administer the contracts. The
COTR’s appointment memorandum specifically states that the COTR does not
have the authority to award, agree to, or sign a contract or contract
modification.




                                       15
The OCIO contracting officer and the COTR both received an e-mail from
Project Performance Corporation’s contract specialist with a price quote for a
modification. The COTR responded to the e-mail by forwarding it to the OCIO
contracting officer and Project Performance Corporation’s contract specialist
with a message that the Agency had decided to “accept Option 1” and directing
the OCIO contracting officer to work with Project Performance Corporation on
the required modification. Because the COTR did not have the authority to
agree to a modification, he did not have the authority to send the e-mail
message to Project Performance Corporation.

T-Mobile USA Invoices

According to section 8.402 of the FAR, FSS contracts require all schedule
contractors to publish an “Authorized Federal Supply Schedule Pricelist.” The
pricelist contains all supplies and services offered by a schedule contractor.
The amount charged by T-Mobile USA was not consistent with their FSS
pricelist. For the two monthly invoices we reviewed, the Agency overpaid $773
for voice and data services. If all options are exercised, we estimate that the
Agency could put more than $13,000 to better use if the correct amounts were
paid over 36 months.

Contract Dates

Subpart 4.8 of the FAR states that the head of each office performing
contracting, contract administration, or paying functions shall establish files
containing the records of all contractual actions. The documentation in the
files shall be sufficient to constitute a complete history of the transaction for
the purpose of: providing a complete background as a basis for informed
decisions at each step in the acquisition process; supporting actions taken;
proving information for reviews and investigations; and furnishing essential
facts in the event of litigation or congressional inquiries.

For the contract files in our sample, documentation was not sufficient to
constitute a complete history because the dates for purchase orders and
modifications were incorrect. Seven of the 10 purchase orders in our sample
had a date of order that was prior to the date that the OCIO contracting officer
actually signed the document. Two of the nine modifications also had an
incorrect effective date. The OCIO contracting officer acknowledged that these
dates are the dates that he initiated the action in the Agency’s procurement
system, rather than the date he signed it. He also stated that having an
incorrect date should not be a problem. Although the OCIO contracting officer
stated that this information is not important, he is responsible for ensuring
that the contract records are accurate, including the date the action is actually
signed and approved.



                                        16
Accessibility Standards

According to subpart 39.2 of the FAR, unless an exemption exists, agencies
must ensure that Federal employees and members of the public with
disabilities have access to and use of information and data that is comparable
to the access and use by Federal employees and members of the public who are
not individuals with disabilities.

None of the purchase orders had a valid exception to the accessibility
standards and the contract files contained no documentation regarding
accessibility. The OCIO contracting officer stated that items on FSS contracts
comply with accessibility requirements. GSA disagreed and stated that the
Agency is responsible for determining whether what it is ordering meets its
accessibility requirements.


Antideficiency Act

The courts and GAO have ruled that an agency may not enter into an open-
ended indemnification clause because such agreements violate the
Antideficiency Act. By entering into an agreement to indemnify where the
Government’s liability is indefinite, the Agency exposes itself to a liability in
excess of its appropriation. The exceptions to this prohibition that apply to
situations involving risks that are unusually hazardous or nuclear do not apply
to the Agency’s procurements.

Three of the purchase orders for software included open-ended indemnification
clauses in the licensing agreements. These clauses generally provided that the
Agency will indemnify the software provider against claims resulting from the
use of the software. We note that one of the agreements occurred prior to the
initiation of the pilot program.


State Laws

Because Federal contracts are governed by Federal law, agreeing to allow state
law to govern or to subject the Agency to state court jurisdiction is improper.
Twelve of the 14 software purchase orders we reviewed included provisions in
the licensing agreement that purported to make the Agency subject to
jurisdiction of state courts or state laws. On one contract, this issue was
brought to the attention of the OCIO contracting officer by legal counsel, but it
was not corrected.



                                       17
                           RECOMMENDATIONS

We recommend that the Senior Procurement Executive:

  1. Withdraw the warrant authority from the Associate CIO for Program
     Management.

  2. Coordinate with the CIO to work with Four Points Technology on the
     software license and support agreement for Pointsec software to remedy
     the automatic renewal provision.

  3. Provide guidance to the contracting officers regarding the proper means
     to exercise options.

  4. Coordinate with the CIO to arrange for T-Mobile USA to correct future
     invoices and refund overcharges.

We recommend that the CIO:

  5. Develop procedures to plan and initiate procurement actions with
     sufficient time to obtain adequate competition.

We recommend that the Senior Procurement Executive and CIO:

  6. Work together to establish procedures for ensuring that OCIO
     procurement needs are met. In doing so, they should discuss their
     experiences with the pilot program and other procurement issues with
     the Board and the General Counsel. This would include formalizing the
     requirement for legal review of OCIO procurement actions. At a
     minimum, the requirement should include a review of all licensing
     agreements.

  7. If the warrant authority remains with the OCIO official, establish well
     documented internal controls that provide a step-by-step process for
     reviewing procurement actions. The procedures should identify what
     documents are necessary when reviewing procurement actions and how
     to document the review.




                                     18
                                                                                                       ATTACHMENT

                                                               Purchases Greater than $100,000
                                              Dell        immix       Mythics,          Project              Unisys
                                            Marketing   Technology,     Inc.         Performance           Corporation
                                              L.P.         Inc.                  Corporation for the
                                                                                   period 3/5/07 to
                                                                                       9/27/07
Sole source issues.                                          √
Brand name justification not posted.                                     √*
Acquisition plan not documented.                √            √            √                √                     √
Market research not documented.                                                            √
Market research conducted was not               √
appropriate for the circumstances.
Inappropriate use of a letter contract.                                                       √
Option requirements not met.                                               √                                     √
Option inappropriately exercised.                                          √
Improper inclusion of open market items                                                                          √
on orders placed against FSS contracts.
Unauthorized commitment not ratified.                                                         √
Contract did not contain the appropriate                                                      √
clauses for the contract type utilized.
COTR acted outside of authority.                                                              √
Date for purchase order was not correct.                      √                               √                  √
Accessibility requirements not addressed.       √             √            √                  √                  √
License agreement violated the                                             √
Antideficiency Act.
License agreement agreed to allow state                                    √*                                    √
law to govern.
√ - Identified during the OIG review.               ∗ - Identified by PFB or legal counsel during their review process.




                                                         19
                                                                  Purchases Less than $100,000
                                               Carahsoft          CT      FormSoft         Project              T-Mobile
                                              Technology       Summation    Group       Performance               USA
                                                 Corp                        LTD       Corporation for
                                                                                         the period
                                                                                         9/28/07 to
                                                                                          11/23/07
Sole source issues.                                                                           √
Brand name justification not posted.                                                                                √
Acquisition plan not documented.                    √              √             √                 √                √
Market research not documented.                                                  √                 √
Option requirements not met.                                                                                        √
Improper inclusion of open market items on                                       √
orders placed against FSS contracts.
Unauthorized commitment not ratified.                              √             √*
Contract did not contain the appropriate                                                                            √
clauses for the contract type utilized.
CCR expired.                                                       √
Invoices did not comply with the                                                                                    √
contractor’s FSS.
Date for purchase order or modification was         √              √             √                 √
not correct.
Accessibility requirements not addressed.           √              √             √                 √                √
License agreement agreed to allow state law         √              √             √
to govern.
√ - Identified during the OIG review.                ∗ - Identified by PFB or legal counsel during their review process.

                                                               Software
                                                               Contracts
License agreement violated the Antideficiency Act.          3
License agreement agreed to allow state law to govern.      12
Automatic renewal.                                          1



                                                          20
